      U.S. ELECTION ASSISTANCE
             COMMISSION
    OFFICE OF INSPECTOR GENERAL




          INDEPENDENT AUDITORS’ REPORT
      U.S. ELECTION ASSISTANCE COMMISSION
        FINANCIAL STATEMENTS FOR FY 2011
                    AND FY 2010




NO. I-PA-EAC-01-11
NOVEMBER 2011
                       U.S. ELECTION ASSISTANCE COMMISSION


                                OFFICE OF INSPECTOR GENERAL


                               1201 New York Ave. NW - Suite 300


                                     Washington, DC 20005



                                                               November 15, 2011


To:        The Commission

From:      Curtis W. Crider
           Inspector General, U.S. Election Assistance Commission

Subject:		 Audit of the U.S. Election Assistance Commission’s Fiscal Year 2011
           and 2010 Financial Statements.

This memorandum transmits Leon Snead & Co P.C.’s financial statement audit
report of the U.S. Election Assistance Commission (EAC) for the Fiscal Years
2011 and 2010.

Results of Independent Audit

The Chief Financial Officer’s (CFO) Act of 1990 (P.L. 101-576), as amended,
requires EAC Inspector General or an independent external auditor, as determined
by the Inspector General, to audit EAC’s financial statements. Under a contract
monitored by the Office of Inspector General (OIG), Leon Snead & Co. P.C., an
independent public accounting firm, performed an audit of EAC’s Fiscal Years
2010 and 2009 financial statements. The contract required that the audit be
performed in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States, and Bulletin 07-04, Audit Requirements
of Federal Financial Statements, as amended, issued by the United States Office of
Management and Budget (OMB).

Leon Snead & Co. P.C. issued an unqualified opinion on EACS’s financial
statements. In its report, Leon Snead & Co. P.C. identified one material weakness
in internal control relating to EAC’s monitoring of its service provider processes,
and one significant deficiency relating to lack of funds control over continuing
resolution funding.

Leon Snead & Co. P.C. reported no instances of material noncompliance with laws
and regulations to tested that is required to be reported under Government Auditing
Standards and OMB Bulletin 07-04 (as amended).

EAC management’s response, dated November 7, 2011, follows Leon Snead & Co.
P.C.’s report.
Evaluation of Leon Snead & Co. P.C.’s Audit Performance

To fulfill our responsibilities under the CFO Act of 1990, as amended, and other
related financial management requirements, the OIG:

       Reviewed Leon Snead & Co. P.C.’s approach and planning of the audit;

       Evaluated the qualification and independence of the auditors;

       Monitored the progress of the audit at key points;

       Coordinated periodic meetings with EAC management to discuss
       progress, findings, and recommendations;

       Reviewed Leon Snead & Co. P.C.’s audit report;

       Performed other procedures we deemed necessary; and

       Coordinated issuance of the audit report.

Leon Snead & Co. P.C. is responsible for the attached auditor’s report dated
November14, 2011, and the conclusions expressed in the report. We do not
express any opinion on EAC’s financial statements or conclusions on the
effectiveness of internal control, or compliance with laws and regulations.

Report Distribution

The Inspector General Act of 1978, as amended, requires semiannual reporting to
Congress on all reports issued, actions taken to implement recommendation, and
recommendations that have not been implemented. Therefore, we will include the
information in the attached audit report in our next semiannual report to Congress.
The distribution of this report is not restricted and copies are available for public
inspection.

The Office of Inspector General appreciates the courtesies and cooperation EAC
extended to Leon Snead & Co. P.C. and the OIG staff during the audit. If you, or
your staff, have any questions, please contact me at (202) 566-3125.



Attachment


Copy to:       Thomas Wilkey, Executive Director
               Annette Lafferty, Chief Financial Officer
               Alice Miller, Chief Operating Officer
               Mark Robins, General Counsel
U.S. ELECTION ASSISTANCE COMMISSION


         Audit of Financial Statements


           As of and for the Years Ended


           September 30, 2011 and 2010






                       Submitted By



                Leon Snead & Company, P.C.


    Certified Public Accountants & Management Consultants
                                       TABLE OF CONTENTS





                                                                                                                                  Page


Independent Auditor’s Report............................................................................................ 1



Opinion .............................................................................................................................. 2



Internal Controls over Financial Reporting ....................................................................... 2



Compliance with Laws, Regulations, Contracts, and Grant Agreements........................ 11



Responsibilities ................................................................................................................ 11



Appendix 1, Status of Prior Year Findings...................................................................... 13



Appendix 2, Agency Response to Audit.......................................................................... 14






Leon Snead & Company, P. C.                                         i
LEON SNEAD                                                                                          Certified Public Accountants
&COMPANY,PC.--________________________________________________________________
                                                                 & Management Consultants

416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
fax: 301-738-8210
leonsnead.companypc@erols.com




                The Commission and Inspector General
                u.s. Election Assistance Commission

                                             Independent Auditor's Report

                We have audited the accompanying balance sheets of the U.S. Election Assistance
                Commission (EAC), as of September 30,2011, and 2010, and the related statements of
                net cost, changes in net position, and budgetary resources (financial statements) for the
                years then ended. The objective of our audit was to express an opinion on the fair
                presentation of those financial statements. In connection with our audit, we also
                considered the EAC's internal controls over financial reporting, and tested the EAC's
                compliance with certain provisions of applicable laws, regulations, contracts, and grant
                agreements that could have a direct and material effect on its financial statements.

                SUMMARY

                As stated in our opinion on the financial statements, we found that the EAC's financial
                statements, as of and for the years ended September 30, 2011 and 2010, are presented
                fairly, in all material respects, in conformity with accounting principles generally
                accepted in the United States of America.

                Our consideration of internal controls would not necessarily disclose all deficiencies in
                internal controls over financial reporting that might be material weaknesses under
                standards issued by the American Institute of Certified Public Accountants (AICP A).
                However, our testing of internal controls identified one material weakness in internal
                controls over financial reporting. Because of this weakness, we completed substantial
                additional audit testing, and performed other auditing procedures, as necessary, to ensure
                that the financial statements were fairly stated.

                The results of our tests of compliance with certain provIsIOns of laws, regulations,
                contracts, and grant agreements disclosed no material instances of noncompliance that are
                required to be reported herein under Government Auditing Standards, issued by the
                Comptroller General of the United States and Office of Management and Budget (OMB)
                Bulletin No. 07-04, Audit Requirements/or Federal Financial Statements (as amended).

                 The following sections discuss in more detail our opinion on the EAC's financial
                 statements, our consideration of the EAC's internal controls over financial reporting, our
tests of the EAC’s compliance with certain provisions of applicable laws, regulations,
contracts, and grant agreements, and management’s and our responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of the EAC as of September 30, 2011
and 2010, and the related statements of net cost, changes in net position, and budgetary
resources for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position, net cost, changes in net position, and budgetary resources
of the EAC, as of and for the years ended September 30, 2011 and 2010, in conformity
with accounting principles generally accepted in the United States of America.

The information in the Management’s Discussion and Analysis is not a required part of
the basic financial statements, but is supplementary information required by accounting
principles generally accepted in the United States of America or OMB Circular A-136,
Financial Reporting Requirements. We have applied certain limited procedures, which
consisted principally of inquiries of EAC management regarding the methods of
measurement and presentation of the supplementary information. We also ensured that
the information was consistent with the financial statements. However, we did not audit
the information and express no opinion on it. The Agency Financial Report, except for
Management’s Discussion and Analysis, is not a required part of the basic financial
statements; therefore, such information has not been subjected to the auditing procedures
applied in the audit of the basic financial statements and, accordingly, we express no
opinion on it.

We inquired of EAC’s management as to its methods for preparing Required
Supplementary Stewardship Information (RSSI), and reviewed this information for
consistency with the financial statements. The RSSI is not a required part of the basic
financial statements and provides information on investments in nonfederal property, and
research and development funding. However, our audit was not designed to express an
opinion and, accordingly, we do not express an opinion on EAC’s RSSI.

INTERNAL CONTROLS OVER FINANCIAL REPORTING

In planning and performing our audit of the financial statements of the EAC, as of and for
the years ended September 30, 2011 and 2010, in accordance with auditing standards
generally accepted in the Unites States of America, we considered the EAC’s internal
controls over financial reporting (internal controls) as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements, but not
for the purpose of expressing an opinion on the effectiveness of the EAC’s internal
controls. Accordingly, we do not express an opinion on the effectiveness of the EAC’s
internal controls over financial reporting.




Leon Snead & Company, P.C.                   2
Because of inherent limitations in internal controls, including the possibility of
management override of controls, misstatements, losses, or noncompliance may
nevertheless occur and not be detected. A control deficiency exists when the design or
operation of a control does not allow management or employees, in the normal course of
performing their assigned functions, to prevent or detect misstatements on a timely basis.
A material weakness is a deficiency, or combination of significant deficiencies, in
internal controls, such that there is a reasonable possibility that a material misstatement of
the financial statements will not be prevented or detected and corrected on a timely basis.
A significant deficiency is a control deficiency, or combination of control deficiencies,
that is less severe than a material weakness, yet important enough to merit attention by
those charged with governance of the EAC.

Our consideration of internal controls was for the limited purpose described in the first
paragraph in this section of the report, and would not necessarily identify all deficiencies
in internal controls that might be significant deficiencies or material weaknesses.
However, as discussed below, we identified certain deficiencies in internal controls that
we consider to be significant deficiencies. We consider the items related to finding one
to be a material weakness.

Findings and Recommendations

1.		 EAC Controls over Financial Reporting and Service Provider Processes
     Impacted 2011 Financial Statements

    Documentation needed to support the year-end financial statements was not timely
    provided, and numerous errors were identified in EAC’s financial statements and
    footnotes. We attributed this problem to: (1) operational problems and errors made
    by the agency’s accounting service provider; (2) the departure of a key EAC
    accounting official; and (3) the need for increased agency oversight over service
    provider operations. As a result, EAC has reduced assurance that the agency’s
    internal controls over financial reporting are operating effectively. This represents a
    material weakness in internal controls over financial reporting.

    OMB Circular A-136, Financial Reporting Requirements, provides that reporting
    entities should ensure that information in the financial statements is presented in
    accordance with generally accepted accounting principles for Federal entities and the
    requirements of this Circular. The Government Accountability Office, Standards for
    Internal Control in the Federal Government, provides that “…transactions should be
    promptly recorded to maintain their relevance and value to management in
    controlling operations and making decisions. This applies to the entire process or life
    cycle of a transaction or event from the initiation and authorization through its final
    classification in summary records. In addition, control activities help to ensure that
    all transactions are completely and accurately recorded. Internal controls and all
    transactions and other significant events need to be clearly documented, and the
    documentation should be readily available for examination.”




Leon Snead & Company, P.C.		                  3
       Problems identified during our audit of EAC’s financial statements are discussed
       below.

           a.		 Documentation Necessary to Support Financial Statements Not Provided
                Timely and/or Contained Errors

               EAC timely and accurately provided documentation and information to
               support its financial statements for our interim testing. However, for our tests
               of year-end financial statements, documentation necessary to support the
               financial statements and footnotes was frequently not provided timely, and
               some information provided did not initially support the financial statements or
               footnotes. Because of these problems, we completed substantial additional
               audit testing, and performed other auditing procedures, as necessary, to ensure
               that the financial statements were fairly stated.

               EAC’s service provider did not provide data critical to the completion of the
               audit in a timely manner. For example, an audit request for documentation
               showing how the service provider cross-walked general ledger information to
               the financial statements and footnotes was only provided after repeated
               requests and discussions with the Chief Financial Officer (CFO) and the
               Inspector General. Other data and documents that were not provided or not
               provided timely included: documentation supporting journal vouchers
               prepared by the service provider, account relationship tests, and completed,
               Financial Audit Manual (FAM) checklists that provide assurances that the
               financial statements were properly prepared. We also noted that some
               information provided directly by EAC personnel did not fully support certain
               grant disclosure amounts. For example, supporting grant disbursement
               records did not agree with the related footnote disclosure.

           b.		 Service Provider Posting Model Errors

               We identified posting model 1 errors in the service provider’s accounting
               system that resulted in misclassifying capital assets as an operating expense,
               errors in posting a transfer of funds to another federal agency, and posting
               direct entries to equity accounts. We also noted another posting model error
               dealing with imputed costs that was only corrected after the error was
               identified by another client of the service provider. We attributed these
               problems to a weakness in internal controls processes at the service provider
               concerning review and approval of posting models that impact EAC
               operations. As a result, if the errors had not been detected by parties other
               than the service provider, EAC’s financial statements could have been
               misstated.

               As an example of the problems noted above, our analytical review identified
               the purchase of capital equipment totaling approximately $121,000 that was
1
    The basic standard posting logic for financial events across the Federal Government.


Leon Snead & Company, P.C.		                           4
             incorrectly processed by the service provider as an expense. We discussed
             this matter with EAC officials who advised that the service provider made an
             error in this posting model when performing some accounting system
             modifications.

        c. Journal Voucher Controls Need Strengthening

             Journal vouchers 2 (JV) initiated and processed by the service provider to the
             general ledger were not provided to EAC officials for review and approval,
             and/or necessary supporting documentation was not provided to EAC to
             enable a determination of the appropriateness of the entries. We attributed
             this problem, primarily, to the breakdown of control processes at the service
             provider as they were applied to EAC’s JVs. As a result, EAC’s financial
             statements and financial reports were at increased risk of misstatements.

             We obtained the control procedures for processing JVs used by both the
             service provider and EAC. The service provider’s procedures required that
             backup documentation be gathered to support the entries, that a supervisor
             review, initial and date the back-up documentation; and trial balances or
             queries should be obtained to ensure the journal voucher was processed
             correctly. None of the vouchers we tested met these control requirements.

             Our audit found approximately 25 journal vouchers processed at the end of the
             fiscal year where EAC did not receive documentation to support the entries
             made, and did not review and approve the JVs. For the JVs where the EAC
             had supporting documentation, we selected 6 of 39 journal vouchers for
             detailed testing. For the JVs where documentation was not provided, we
             applied other auditing procedures to ensure that the postings met standard
             general ledger posting models.

             For one of the JVs we tested, the entries were posted directly to the
             cumulative results of operations account. Although the amount of the
             adjustment was not material to the financial statements, the entry did not
             follow standard general ledger posting models which prohibit adjustments to
             equity accounts except during accounting period year-end closings.

             We discussed our concerns with the controls over JV processing with the
             CFO. The CFO stated that due to the departure of the accounting director the
             week before the end of the fiscal year, an EAC accountant was not available
             to review and approve JVs proposed by the service provider. The CFO was
             not aware that the service provider was processing JVs without EAC review
             during this time period. The CFO further indicated plans to reestablish


2
 Journal vouchers bypass accounting and reporting edits built into the accounting system. Since Treasury-
approved posting models are bypassed, any entry included on the journal voucher will be made to the
general ledger. Therefore, it is critical that controls are in place over this function.


Leon Snead & Company, P.C.                         5
            controls that require the EAC to review and approve the journal voucher prior
            to processing.

        d.		 Errors Made by Service Provider Impacted EAC’s Financial Statements
             and Financial Reports

            The financial statements presented for audit contained errors that if not
            corrected would have resulted in qualifications to the audit opinion on the
            2011 and 2010 financial statements. We attributed these errors to a lack of or
            ineffective internal controls over financial reporting by EAC’s service
            provider, as they were applied to EAC operations.

            The financial statements and footnotes EAC presented for audit contained
            misstatements, formatting and other presentation errors, and were lacking
            supporting documentation. Some of the problems we identified during our
            audit follow:

                •		 The first set of footnotes provided for audit contained numerous and
                    material errors in the 2010 footnotes. The second version of the
                    footnotes corrected most, but not all of the errors. For example, the
                    second version depreciation expense for 2010 (footnote five) was
                    misstated by over $100,000, and footnote twelve contained numerous
                    differences between the 2010 audited amounts and the amounts
                    included in the 2011 financial statements.

                •		 We noted that footnote five did not agree with the consolidated trial
                    balance provided by the service provider. The footnote differed by a
                    nonmaterial amount due to errors made by the service provider in
                    cancelling fiscal year 2006 appropriations.

                •		 Our independent crosswalk identified errors in footnote twelve. The
                    footnote line item Resources that Finance the Acquisition of Assets
                    included an amount, while not material, that the SGL did not
                    crosswalk to this footnote section. It appeared the entry was made
                    solely so the footnote balanced with the Statement of Net Cost.

                •		 Information provided by the service provider to support the amount of
                    undelivered orders did not reconcile to the general ledger accounts.
                    We found that the undelivered orders aging report did not include
                    details for paid undelivered orders.

Recommendations:

      1.		 Strengthen the agreement with the service provider to ensure that financial
           statements and supporting documentation are required to be provided to EAC
           and its auditors in a timely manner.


Leon Snead & Company, P.C.		                6
          Agency Response
          EAC will work with the service provider to modify the agreement to help ensure
          timely submission of statements and documentation. It should be noted that the
          provider was not asked to provide full support for the audit until near the end of
          the fiscal year, when EAC found out it was losing its staff accountant as of
          September 23, 2011. The staff accountant provided the support for the past two
          fiscal years.

          Auditor Comments
          EAC agreed to implement the recommendation. Once these actions are
          completed, EAC will have addressed our audit recommendation.

      2.		 Develop specific information requirements and checklists that the service
           provider must complete and provide to EAC to support interim and year-end
           financial statements.

          Agency Response
          EAC will work with the service provider on specific requirements and
          checklists to support interim and year-end financial statements. The starting
          point will be for EAC to ask the provider to use existing requirements and
          checklists in EAC’s Accounting Manual.

          Auditor Comments
          EAC agreed to implement the recommendation. Once the actions are
          completed, EAC will have addressed our audit recommendation.

      3.		 Obtain assurances from the service provider that necessary controls are in place
           and operating effectively concerning the validation of posting models and
           changes made to the posting models.

          Agency Response
          EAC will request assurances from the service provider and follow up that
          necessary changes are made.

          Auditor Comments
          EAC agreed to implement the recommendation. Once the actions are
          completed, EAC will have addressed our audit recommendation.

      4.		 Review all 2011 fiscal year JVs that have not been approved by EAC to ensure
           that the entries are proper.      Require the service provider to provide
           documentation that supports it meets published control procedures relating to
           preparation of JVs.

          Agency Response
          The service provider indicated that FY 2011 Journal Vouchers (JVs) were
          approved either orally or in writing with EAC prior to entry in the financial



Leon Snead & Company, P.C.		                 7
          system. EAC staff will request JVs not yet approved by the agency from the
          service provider and confirm that we agree that the entries are proper. Staff will
          remind the service provider about procedures established in August 2009
          requiring that all JVs be reviewed and approved for accuracy by EAC
          management prior to entry into the financial system.

          Auditor Comments
          EAC agreed to implement the recommendation. Once the actions are
          completed, EAC will have addressed our audit recommendation.

      5.		 Ensure that the service provider corrects the problem with its undelivered order
           aging report.

          Agency Response
          EAC has requested that the service provider modify the aging report to include
          all obligations (including paid undelivered orders), rather than open obligations
          only, in the past. We will make the request again.

          Auditor Comments
          EAC agreed to implement the recommendation. Once the actions are
          completed, EAC will have addressed our audit recommendation.

      6.		 Ensure that EAC’s internal controls over financial reporting, including
           strengthened oversight over its accounting service provider, are re-established.

          Agency Response
          EAC will work with the current or an alternative service provider to ensure
          internal controls over financial reporting are strong in spite of loss of accounting
          staff during an agency hiring freeze.

          Auditor Comments
          EAC agreed to implement the recommendation. Once the actions are
          completed, EAC will have addressed our audit recommendation.

2.		 NIST Transfer – FY 2011

    EAC processed an approximately $613,000 transfer to the National Institute of
    Standards and Technology (NIST) in early December 2010. Because errors were
    made by the service provider and EAC did not follow its own control procedures,
    EAC’s general ledger records showed it did not have sufficient funds available to
    make this transfer. Without appropriate internal controls in place and operating
    effectively, EAC is at increased risk that its financial reports and financial statements
    could be misstated.

    OMB Bulletin 10-03, Apportionment of the Continuing Resolution(s) for Fiscal Year
    2011, and OMB Circular A-11, Preparation, Submission, and Execution of the



Leon Snead & Company, P.C.		                  8
       Budget, provide guidance on the processes to be followed when determining
       apportionments for continuing resolutions.

       During our audit, we noted incorrect postings were made to EAC’s general ledger
       relating to a December 2010 transfer to NIST. Based upon our review of accounting
       documents, discussions with EAC officials, and review of budgetary guidance, we
       obtained an understanding of the events surrounding the NIST transfer. We found
       that EAC accounting personnel initially became aware of an accounting problem with
       the December 2010 transfer to NIST when a routine review of financial information
       showed SGL accounts with abnormal or unusual balances.

       Our review of the accounting for the transfer showed that in addition to creating
       abnormal balances in the general ledger the entry did not follow Standard General
       Ledger (SGL) posting models. For example, we found that the service provider
       posted the entry to SGL account 3101 3, Unexpended Appropriations – Appropriations
       Received, instead of SGL account 3103, Unexpended Appropriation – Transfers Out.
       Service provider personnel advised that the error was made because of an incorrect
       posting model in the accounting system.

       We discussed funds controls in the accounting system with EAC officials to
       determine why controls did not prevent the transfer since there was insufficient
       funding available. We were advised by the CFO that there are fund controls in the
       accounting system within the budget module that will not allow a client to disburse
       more funds than they have. However, during Continuing Resolution (CR) periods,
       the CR amounts are not entered into the budget module, but instead the CR
       apportionments are entered via JVs and monitored by the service provider
       accountants.

       EAC officials advised us that they have discussed the posting model problem with the
       service provider, and reviewed all other NIST transfers to ensure that the accounting
       was appropriate. EAC officials advised that the agency has completed its review of
       NIST transfers for 2011, and all accounts are now correct. EAC has also discussed
       with the service provider the need to establish funds controls over CR
       apportionments, including establishment of a new budget activity specifically for the
       transfer.

       Recommendations:

         1.		 Require the service provider to correct this posting model error, and identify and
              correct all transactions processed under this posting model during this fiscal
              year.




3
    This account reflects the amount of new appropriations received during the fiscal year.


Leon Snead & Company, P.C.		                            9
          Agency Response
          It is our understanding that this posting model error has been corrected. The FY
          2011 NIST transfers were reviewed and accounts are correct.

          Auditor Comments
          The agency has taken action to implement the recommendation.

      2.		 Require the service provider to establish automated funds controls over
           apportionments made through a continuing resolution. Until this change is
           made to the accounting system, ensure compensating controls at the service
           provider and EAC are developed.
          Agency Response
          Service provider staff indicated that they are investigating an appropriate
          automatic control in the accounting system. EAC will follow-up on this during
          FY 2012. In the meantime, compensating controls were established. First,
          exception apportionments during CRs are to be recorded as both JV and A1
          documents, versus the JV only recording in the past. Second, a new budget
          activity specifically for the NIST transfer was established, and is currently being
          used for FY 2012 CRs.

          Auditor Comments
          EAC agreed to implement the recommendation. Once the actions are
          completed, EAC will have addressed our audit recommendation.

      3.		 Review the control breakdowns that occurred within EAC and develop
           additional controls or processes, as appropriate, to ensure that transactions are
           reviewed and approved by all required individuals.

          Agency Response
          EAC worked with the Office of Management and Budget to apportion the NIST
          funds under CRs—even though the funds are apportioned automatically and do
          not fall under the CR formulas, which are based on obligations rather than non-
          expenditure interagency transfer of funds—so that the funds cannot co-mingled
          accidentally. Internally, EAC ensures that NIST transfer funds are apportioned
          under CRs before requesting that GSA initiate any transfers of the funds.
          Auditor Comments
          The agency has described actions that it has taken to address various issues
          dealing with the NIST transfer. However, EAC did not address the
          recommendation that transactions be reviewed and approved by all required
          parties, as discussed in the EAC accounting manual.

    A summary of the status of prior year findings is included as Appendix 1.




Leon Snead & Company, P.C.		                 10
COMPLIANCE WITH LAWS AND REGULATIONS

The results of our tests of compliance with certain provisions of laws, regulations,
contracts, and grant agreements, as described in the Responsibilities section of this report,
disclosed no instances of noncompliance with laws, regulations, contracts, and grant
agreements that are required to be reported under Government Auditing Standards and
OMB Bulletin 07-04 (as amended).

RESPONSIBILITIES

Management Responsibilities

Management of the EAC is responsible for: (1) preparing the financial statements in
conformity with generally accepted accounting principles; (2) establishing, maintaining,
and assessing internal controls to provide reasonable assurance that the broad control
objectives of the Federal Managers Financial Integrity Act (FMFIA) are met; and
(3) complying with applicable laws, regulations, contracts, and grant agreements. In
fulfilling this responsibility, estimates and judgments by management are required to
assess the expected benefits and related costs of internal controls policies.

Auditor Responsibilities

Our responsibility is to express an opinion on the financial statements based on our audit.
We conducted our audit in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States;
and OMB Bulletin 07-04, Audit Requirements for Federal Financial Statements (as
amended). Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material
misstatement.

An audit includes: (1) examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements; (2) assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audit provides a reasonable basis for our
opinion.

In planning and performing our audit, we considered the EAC’s internal controls over
financial reporting by obtaining an understanding of the agency’s internal controls,
determining whether internal controls had been placed in operation, assessing control
risk, and performing tests of controls in order to determine our auditing procedures for
the purpose of expressing our opinion on the financial statements.

We limited our internal controls testing to those controls necessary to achieve the
objectives described in OMB Bulletin 07-04 (as amended) and Government Auditing
Standards. We did not test all internal controls relevant to operating objectives as



Leon Snead & Company, P.C.                   11
broadly defined by FMFIA. Our procedures were not designed to provide an opinion on
internal controls over financial reporting. Consequently, we do not express an opinion
thereon.

As required by OMB Bulletin 07-04 (as amended), with respect to internal controls
related to performance measures determined to be key and reported in Management's
Discussion and Analysis, we made inquiries of management concerning the methods of
preparing the information, including whether it was measured and presented within
prescribed guidelines; changes in the methods of measurement or presentation from those
used in the prior period(s) and the reasons for any such changes; and significant
assumptions or interpretations underlying the measurement or presentation. We also
evaluated the consistency of Management's Discussion and Analysis with management's
responses to the foregoing inquiries, audited financial statements, and other audit
evidence obtained during the examination of the financial statements. Our procedures
were not designed to provide assurance on internal controls over reported performance
measures, and, accordingly, we do not provide an opinion thereon.

We inquired of EAC's management as to its methods for preparing Required
Supplementary Stewardship Information (RSSI), and reviewed this information for
consistency with the financial statements. The RSSI is not a required part of the basic
financial statements. However, our audit was not designed to express an opinion and,
accordingly, we do not express an opinion on EAC's RSSI.

As part of obtaining reasonable assurance about whether the agency's financial
statements are free of material misstatement, we performed tests of its compliance with
certain provisions of laws, regulations, and significant provisions of contracts, and grant
agreements noncompliance with which could have a direct and material effect on the
determination of financial statement amounts, and certain other laws, regulations,
contracts, and grant agreements specified in OMB Bulletin 07-04 (as amended). We
limited our tests of compliance to these provisions and we did not test compliance with
all laws, regulations, contracts, and grant agreements applicable to the EAC. Providing
an opinion on compliance with certain provisions of laws, regulations, and significant
contract provisions was not an objective of our audit and, accordingly, we do not express
such an opinion.

DISTRIBUTION

This report is intended solely for the information and use of the Commission, the Office
of Inspector General, and others within the EAC, OMB, and Congress, and is not
intended to be and should not be used by anyone other than these specified parties.


/ -   ~-=>rn-Aqr->7'Pc­
~ Snead & Company, P.c.
November 14,2011




Leon Snead & Company, P. C.                 12
                                                                                            Appendix 1

                                    Status of Prior Year Findings


Issue                  Prior Year Condition                          Status as of September 30, 2010
          Material Noncompliance: EAC did not have adequate        EAC issued required notifications to address
1.        funds control to ensure compliance with Antideficiency   Antideficiency Act reporting requirements.
          Act and purpose statute.




     Leon Snead & Company, P.C.                      13
                            U. S. ELECTION ASSISTANCE COMMISSION
                                OFFICE OF THE EXECUTIVE DIRECTOR
                                 1201 New York Avenue, NW, Suite 300
                                        Washington, DC. 20005


November 7, 2011


To: 	      Arnie Garza
           Assistant Inspector General for Audit

From: 	    Tom Wilkey
           Executive Director

Subject:   Election Assistance Commission Response to Independent Audit Report on the U.S.
           Election Assistance Commission’s Financial Statements for Fiscal Years 2011 and
           2010 (Assignment No. I-PA-EAC-01-11)


The Election Assistance Commission (EAC) resolved an FY 2010 material noncompliance
related to funds control and compliance with the Antideficiency Act in FY 2010. During FY
2011, the agency continued sound financial management practices and obtained an unqualified
audit opinion on the Fiscal year 2011 financial statements.

The Independent Auditor’s Report, submitted by Leon Snead & Company, Inc., identified one
material weakness in internal control over financial reporting and one significant deficiency.
Overall, EAC agrees with the findings in the report.

Our responses to the audit recommendations regarding the material weakness and to the
significant deficiency are presented below.

EAC Controls over Financial Reporting and Service Provider Processes impacted 2011
Financial Statements

   1.		 Strengthen the agreement with the service provider to ensure that financial
        statements and supporting documentation are required to be provided to EAC and
        its auditors in a timely manner.

        EAC will work with the service provider to modify the agreement to help ensure timely
        submission of statements and documentation. It should be noted that the provider was
        not asked to provide full support for the audit until near the end of the fiscal year, when
        EAC found out it was losing its staff accountant as of September 23, 2011. The staff
        accountant provided the support for the past two fiscal years.

   2.		 Develop specific information requirements and checklists that the service provider
        must complete and provide to EAC to support interim and year-end financial
        statements.
      EAC will work with the service provider on specific requirements and checklists to
      support interim and year-end financial statements. The starting point will be for EAC to
      ask the provider to use existing requirements and checklists in EAC’s Accounting
      Manual.

   3.		 Obtain assurances from the service provider that necessary controls are in place
        and operating effectively concerning the validation of posting models and changes
        made to the posting models.

      EAC will request assurances from the service provider and follow up that necessary
      changes are made.

   4.		 Review all 2011 fiscal year JVs that have not been approved by EAC to ensure that
        the entries are proper. Require the service provider to provide documentation that
        supports it meet published control procedures relating to preparation of JVs.

      The service provider indicated that FY 2011 Journal Vouchers (JVs) were approved
      either orally or in writing with EAC prior to entry in the financial system. EAC staff will
      request JVs not yet approved by the agency from the service provider and confirm that
      we agree that the entries are proper. Staff will remind the service provider about
      procedures established in August 2009 requiring that all JVs be reviewed and approved
      for accuracy by EAC management prior to entry into the financial system.

   5.		 Ensure that the service provider corrects the problem with its undelivered order
        aging report.

      EAC has requested that the service provider modify the aging report to include all
      obligations (including paid undelivered orders), rather than open obligations only, in the
      past. We will make the request again.

   6.		 Ensure that EAC’s internal controls over financial reporting, including
        strengthened oversight over its accounting service provider, are re-established.

      EAC will work with the current or an alternative service provider to ensure internal
      controls over financial reporting are strong in spite of loss of accounting staff during an
      agency hiring freeze.

NIST Transfer – FY 2011

   1.		 Require the service provider to correct this posting model error, and identify and
        correct all transactions processed under this posting model during this fiscal year.

      It is our understanding that this posting model error has been corrected. The FY 2011
      NIST transfers were reviewed and accounts are correct.

   2.		 Require the service provider to establish automated funds controls over
        apportionments made through a continuing resolution. Until this change is made to
       the accounting system, ensure compensating controls at the service provider and
       EAC are developed.

       Service provider staff indicated that they are investigating an appropriate automatic
       control in the accounting system. EAC will follow-up on this during FY 2012. In the
       meantime, compensating controls were established. First, exception apportionments
       during CRs are to be recorded as both JV and A1 documents, versus the JV only
       recording in the past. Second, a new budget activity specifically for the NIST transfer
       was established, and is currently being used for FY 2012 CRs.

   3.		 Review the control breakdowns that occurred within EAC and develop additional
        controls or processes, as appropriate, to ensure that transactions are reviewed and
        approved by all required individuals.

       EAC worked with the Office of Management and Budget to apportion the NIST funds
       under CRs—even though the funds are apportioned automatically and do not fall under
       the CR formulas, which are based on obligations rather than non-expenditure interagency
       transfer of funds—so that the funds cannot co-mingled accidentally. Internally, EAC
       ensures that NIST transfer funds are apportioned under CRs before requesting that GSA
       initiate any transfers of the funds.


Cc: G
    	 ineen Bresso, Commissioner
    Donetta Davidson, Commissioner
    Mark Robbins, General Counsel
    Curtis Crider, Inspector General
    Alice Miller, Chief Operating Officer
    Annette Lafferty, Chief Financial Officer
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1201 New York Ave. NW - Suite 300
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
